                                                                             OFFICE OF INSPECTOR GENERAL

                                                                             Office of Audit Services
                                                                             Region I
                                                                             John F. Kennedy Federal Building
                                                                             Boston, MA 02203
                                                                             (617) 565-2684
 OCT 3 12008
Report Number: A-O 1-08-00531

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11 th floor
Boston, Massachusetts 021 08 ~

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Medicare and Medicaid Credit Balances at
Merrimack Valley Hospital for the Period Ending December 31, 2007." We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this letter.
Your response should present any comments or additional information that you believe may
have a bearing on the final determination. We provided Merrimack Valley Hospital with a
copy of our draft report, and its comments are included in the enclosed final report.

Pursuant to the principles oft11e Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available
                                                       t
                                                                to the public to the extent the
information is not subject to exemptions in the Act 45 fCFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at 617-565-2704 01* through e-mail at
David.Lamir@oig.hhs.gov. Please refer to report number A-O 1-08-00531 in all
correspondence.

                                              Sincerely,


                                              h~,f~ If'-r~~;frznf~~'-
                                                              {/
                                              Michael J. Armstrong
                                              Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - JudyAnn Bigby, M.D.


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235 •
~Kansas City, Missouri 64106


cc:
Mr. Robert Crosby
Chief Financial Officer
Merrimack Valley Hospital
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




        REVIEW OF
 MEDICARE AND MEDICAID
   CREDIT BALANCES AT
MERRIMACK VALLEY HOSPITAL
  FOR THE PERIOD ENDING
    DECEMBER 31, 2007




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-01-08-00531
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                       at htlp://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY

BACKGROUND

Medicare and Medicaid credit balances generally occur when a provider receives a
duplicate payment from the Medicare or Medicaid program or receives a payment from
another payer after the provider has been reimbursed by Medicare or Medicaid.

Credit balances in the accounts of Medicare and Medicaid beneficiaries generally
represent overpayments that must be returned to the Medicare or Medicaid programs.
For Medicare overpayments, 42 CFR 489, subpart B, states that providers must send a
refund to the Medicare fiscal intermediary within 60 days of receiving an overpayment.
For Medicaid overpayments, 42 CFR 433, subpart F, stipulates that a State has 60 days
from the discovery of an overpayment for Medicaid services to recover the overpayment
from the provider before Medicaid adjusts Federal Medicaid payments to the State.

MassHealth, the Massachusetts Medicaid program, is administered by the Massachusetts
Executive Office of Health and Human Services (the State agency). Merrimack Valley
Hospital (the Hospital) is a full service, 125 bed acute-care hospital in Haverhill,
Massachusetts.

OBJECTIVE

Our objective was to determine whether the credit balances in the Hospital’s accounting
records for inpatient and outpatient services for Medicare or Medicaid beneficiaries
represented overpayments more than 60 days old that the hospital should have been
returned to the Medicare or Medicaid program.

SUMMARY OF FINDINGS

As of December 31, 2007, the Hospital’s accounting records for Medicaid beneficiaries
contained 35 credit balances more than 60 days old. Thus the Hospital did not promptly
return Medicaid overpayments of $11, 218 ($5,609 Federal share) to the State agency, in
accordance with State Medicaid requirements. These errors occurred because the
Hospital did not follow its internal procedures for processing and returning Medicaid
overpayments.

As of December 31, 2007, the Hospital’s accounting records for Medicare beneficiaries
contained no outstanding credit balances more than 60 days old.

RECOMMENDATIONS

We recommend that the State Agency ensure that the Hospital:

   •   return overpayments totaling $11,218 ($5,609 Federal share) to the State agency
       and



                                            i
   •   continue efforts to identify and return all overpayments in accordance with State
       Medicaid requirements.

MERRIMACK VALLEY HOSPITAL COMMENTS

The Hospital concurred with our finding of outstanding credit balances but disagreed that
the credit balances had occurred because the Hospital had not followed its procedures for
resolving Medicaid credit balances. The Hospital stated that the actual cause of the
outstanding credit balances was inherent problems with the State agency’s system for
recovering Medicaid overpayments. The Hospital requested that we recommend that the
State agency review its procedures to ensure timely and proper recovery of
overpayments.

OFFICE OF INSPECTOR GENERAL RESPONSE

We recognize that problems with the State agency’s system for recovering Medicaid
overpayments contributed to the Hospital’s failure to return Medicaid funds within 60
days. However, according to State regulations, the Hospital is ultimately responsible for
returning the overpayments. In response to the Hospital’s request that we recommend
that the State agency review its procedures for recovering overpayments, we have
provided the State agency with examples of the problems that the Hospital encountered in
trying to refund the overpayments.




                                            ii
                                            TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope........................................................................................................1
               Methodology ............................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................2

          STATE MEDICAID REQUIREMENTS ............................................................3

          OUTSTANDING CREDIT BALANCES CONTAINING
           OVERPAYMENTS ..........................................................................................3

          AMOUNT OF UNREFUNDED OVERPAYMENTS ........................................4

          CAUSE OF UNFUNDED OVERPAYMENTS..................................................4

          RECOMMENDATIONS.....................................................................................4

          MERRIMACK VALLEY HOSPITAL COMMENTS........................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................4


APPENDIX

          MERRIMACK VALLEY HOSPITAL COMMENTS




                                                              iii
                                   INTRODUCTION

BACKGROUND

Medicare and Medicaid Credit Balances

Medicare and Medicaid credit balances generally occur when a provider receives a
duplicate payment from the Medicare or Medicaid program or receives a payment from
another payer after the provider has been reimbursed by Medicare or Medicaid. Credit
balances in the accounts of Medicare and Medicaid beneficiaries generally represent
overpayments that must be returned to the Medicare or Medicaid program.

For Medicare overpayments, 42 CFR 489, subpart B, states that providers must send a
refund to the Medicare fiscal intermediary within 60 days of receiving an overpayment.
For Medicaid overpayments, 42 CFR 433, subpart F, stipulates that a State has 60 days
from the discovery of an overpayment for Medicaid services to recover the overpayment
from the provider before Medicaid adjusts Federal Medicaid payments to the State.

MassHealth, the Massachusetts Medicaid program, is administered by the Massachusetts
Executive Office of Health and Human Services (the State agency). The State agency
requires providers to return overpayments classified as credit balances within 60 days of
their receipt. It reinforced this regulation in November 2004, when it issued a Bulletin to
providers stating that it may impose administrative fines against providers who do not
return overpayments classified as credit balances within 60 days of their receipt.

Merrimack Valley Hospital (the Hospital) is a full service, 125 bed acute-care hospital in
Haverhill, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the credit balances in the Hospital’s accounting
records for inpatient and outpatient services for Medicare or Medicaid beneficiaries
represented overpayments more than 60 days old that the hospital should have returned to
the State agency.

Scope:

We reviewed the Hospital’s accounting records as of December 31, 2007. The Hospital’s
accounts related to Medicaid beneficiaries contained 150 credit balances totaling $29,397,
and those related to Medicare beneficiaries contained 2 credit balances totaling $1,443.

We limited our review of internal controls to obtaining an understanding of the Hospital’s
controls related to reviewing credit balances and reimbursing Medicare and Medicaid for
overpayments.



                                             1
We performed our field work in May 2008 at Merrimack Valley Hospital in Haverhill,
Massachusetts.

Methodology:

To accomplish our objectives, we:

   ¾ reviewed Federal and State regulations pertaining to Medicare and Medicaid
     credit balances;

   ¾ conducted interviews with Hospital officials to obtain an understanding of the
     controls in place for reporting and reimbursing Medicare and Medicaid credit
     balances;

   ¾ conducted discussions with the fiscal intermediary;

   ¾ reconciled the Hospital’s Medicare credit balances for the quarter ending
     December 31, 2007, to those reported to the fiscal intermediary;

   ¾ obtained a Medicaid credit balance listing from the Hospital’s accounting records
     for the quarter ending December 31, 2007, and reviewed the 50 accounts with
     balances over $300 totaling $16,774 to determine whether Medicaid
     overpayments had occurred; and

   ¾ reviewed Medicare and Medicaid remittance advises, patient accounts receivable
     detail, and adjustment forms.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.
.
                       FINDINGS AND RECOMMENDATIONS

As of December 31, 2007, the Hospital’s accounting records for Medicaid beneficiaries
contained 35 credit balances more than 60 days old. As a result, the Hospital did not
promptly return Medicaid overpayments of $11, 218 ($5,609 Federal share) to the State
agency, in accordance with State Medicaid requirements. These errors occurred because
the Hospital did not follow its internal procedures for processing and returning Medicaid
overpayments.

As of December 31, 2007, the Hospital’s accounting records for Medicare beneficiaries
contained no outstanding credit balances more than 60 days old.




                                            2
STATE MEDICAID REQUIREMENTS

Pursuant to 130 Code of Massachusetts Regulations (CMR) 450.235, provider
overpayments include, but are not limited to, payments to a provider for services not
actually provided or duplicate payments for the same service from other health insurers,
worker’s compensation insurers, or other third-party payers. Pursuant to 130 CMR
450.238 (B)(7), providers who do not return overpayments within 60 days of receipt may
be subject to sanctions, including administrative fines and suspension or termination from
participating in MassHealth.

The State agency reinforced this requirement in November 2004, when it issued a
Bulletin to providers stating that it may impose administrative fines against providers
who do not return overpayments classified as credit balances within 60 days of their
receipt.

OUTSTANDING CREDIT BALANCES CONTAINING OVERPAYMENTS

The Hospital did not always return Medicaid overpayments within 60 days, as specified
by State Medicaid requirements. Of the 50 claims that we reviewed with credit balances
over $300, thirty-five (35) contained Medicaid credit balances more than 60 days old that
the Hospital should have returned to the State agency. The ages of the credit balances
ranged from 61 to 749 days, as the following table summarizes.

        Ages of Credit Balances and Amounts of Unrefunded Overpayments


        Days                             Claims                Refund Amount


      61 – 90                                5                    $1,515

      91 -120                                5                     $1,515


      121-200                                4                    $1,252


      201-300                                5                     $1,518


      301-749                              16                      $5,418

      TOTAL                                35                    $11,218




                                             3
AMOUNT OF UNREFUNDED OVERPAYMENTS

As a result of not promptly resolving its credit balances and reporting overpayments, the
Hospital did not return overpayments of $11,218 ($5,609 Federal share) to the State
agency within 60 days of their receipt.

CAUSE OF UNREFUNDED OVERPAYMENTS

These errors occurred because the Hospital did not follow its internal procedures for
resolving Medicaid credit balances.

RECOMMENDATIONS

We recommend that the State agency ensure that the Hospital:

   •   return overpayments totaling $11,218 ($5,609 Federal share) to the State agency
       and

   •   continue its efforts to identify and return all overpayments in accordance with
       State Medicaid requirements.

MERRIMACK VALLEY HOSPITAL COMMENTS

The Hospital concurred with our finding of outstanding credit balances but disagreed that
the credit balances had occurred because the Hospital had not followed its procedures for
resolving Medicaid credit balances. The Hospital stated that the actual cause of the
outstanding credit balances was inherent problems with the State agency’s system for
recovering Medicaid overpayments. The Hospital cited examples of claims for which it
sent voids requesting the recovery of Medicaid overpayments and the State agency either
(1) failed to collect the Medicaid overpayment or (2) retracted the payment on one line of
the claim but reestablished the overpayment on another line of the claim. The Hospital
requested that we recommend that the State agency review its procedures to ensure
timely and proper recovery of overpayments.

OFFICE OF INSPECTOR GENERAL RESPONSE

We recognize that problems with the State agency’s system for recovering Medicaid
overpayments contributed to the Hospital’s failure to return Medicaid funds within 60
days. However, according to State regulations, the Hospital is ultimately responsible for
returning the overpayments. The hospital failed to send void notifications to the State
agency for 13 of the 50 Medicaid credit balances that we reviewed and did not follow up
on 7 additional credit balances after it sent the initial void letter. In response to the
Hospital’s request that we recommend that the State agency review its procedures for
recovering overpayments, we have provided the State agency with examples of the
problems that the Hospital encountered in trying to refund the overpayments.




                                            4
APPENDIX
                                                                                                APPENDIX
            Merrimack
            Valley
•           Hospital
An Affiliate of Essent Healthcare




           September 18, 2008

           Michael J. Armstrong
           Regional Inspector General for Audit Services
           Region I
           John F. Kennedy Federal Building
           Boston, MA 02203

            RE:     Report # A-01-08-00531

            Dear Mr. Armstrong:

            The purpose of this letter is to respond to Merrimack Valley Hospital's recent Credit
            Balance Audit conducted by the GIG for the period ending December 31, 2007. The
            overall findings of this audit are accurate; however what the hospital does not agree with
            is the cause of unreturned overpayments. It is indicated in the report that "These errors
            occurred because the Hospital did not follow its internal procedures for resolving
            Medicaid credit balances". In the opinion of the hospital, this is an inaccurate statement.
            The hospital noted to the GIG representatives that credit balances were not all due to the
            lack of follow up by the hospital but despite the hospital trying to return money the
             State's system could not take money back. Merrimack Valley Hospital showed several
             examples of claims that were voided and Mass Health never took money back. The
             hospital also showed several examples of claims that voids were sent, Mass Health
             retracted their payment and then paid again on different lines. Several of these accounts
             were even voided up to three times. This results in a lot of excess, unnecessary
             administrative time on the hospital's part when Mass Health does not process voids
             correctly. It appears the hospital was not following up with Medicaid credit balances.

              A recommendation should be made that the State reviews its recovery procedures to
              ensure timely and proper recovery. In summary, the hospital has modified some of its
              internal procedures to ensure the timely return of credits for the process it controls. If the
              State does not change its procedures, the process will continue to be broken.

              If you have any questions or require additional information, please feel free to contact
              me at the number listed below.

              Sincerely,

               I)QAlvru j(CWUrj
              ~leneLavin
              Director of Patient Financial Services
              978-521-8730


                                       140 Lincoln Avenue. Haverhill, MA 01830
                                                    (978) 374-2000
                                            www.merrimackvalleyhospital.com
